Gmail - CJA eVoucher - c06_prod Notifying Counsel of Ap...

1 of 1

https://mail.google.com/mail/u/0?ik=561afb95d4&view...

Rhys Cartwright-Jones <rhys44503@gmail.com>

CJA eVoucher - c06_prod Notifying Counsel of Appointment
1 message
CA06-eVoucher@ca6.uscourts.gov <CA06-eVoucher@ca6.uscourts.gov>
To: rhys44503@gmail.com

Thu, Dec 5, 2019 at 12:16 PM

To: Rhys Cartwright-Jones,
Date: 12/5/2019 9:16:27 AM.
This is to inform you that the Sixth Circuit Court of Appeals has
appointed you to represent Phillip Blough in case USA vs. Phillip Blough
1:19-AP-03170 before this court. You should have received previous
correspondence from the court. If you have not, and you feel this is a
mistake, please contact our oﬀice for more information. If you have
already withdrawn from the case but completed work, a voucher has
been created so you can claim your time.
You may access this appointment via the CJA eVoucher program at
https://evadweb.ev.uscourts.gov/CJA_c06_prod/CJAeVoucher.
Regards,
Sixth Circuit Court of Appeals
The information in this e-mail and in any attachment may contain information which is privileged. It is intended only for the attention and use of the
named recipient. If you are not the intended recipient, you are not authorized to retain, disclose, copy or distribute the message and/or any of its
attachments. If you received this e-mail in error, please notify the sender and delete this message. Thank you.
The US Courts.

3/23/21, 12:30

